NATIONAL RAILROAD PASSENGER CORPORATION
                        Office of the Inspector General




                                                OCTOBER 1, 2007 – MARCH 31, 2008


                                   Semiannual Report
                                         to Congress
Cover Photo by Steve Carter: Amtrak Cascades, Tacoma, Washington
NATIONAL RAILROAD PASSENGER CORPORATION

                              Office of the Inspector General




                                                    Semiannual Report
                                                          to Congress




                                                                                   REPORT NO. 37
                                                                OCTOBER 1, 2007 – MARCH 31, 2008
                                                NATIONAL RAILROAD PASSENGER CORPORATION
                                                     Office of the Inspector General, 10 G Street, NE, 3W-300, Washington, DC 20002-4285




May 30, 2008

Honorable Donna McLean
Chairman
Amtrak Board of Directors

Dear Madam Chairman:

On behalf of the Amtrak Office of Inspector General (OIG), I am pleased to present this Semiannual
Report to Congress. The OIG Report highlights significant audits, evaluations, and investigations for
the six-month period ending March 31, 2008. During the reporting period, the OIG issued 15 audit
reports that identified questioned costs of $398,896 and $6,390,505 in funds to be put to better use.
The OIG performed audits of Amtrak’s procurement operations, including the need to purchase a
larger volume of concrete ties, and other operational expense areas, including payments to freight
railroads for their services, and Amtrak’s overtime wages, among others.

OIG investigators and special agents opened 69 new cases in the past six months and closed 62 cases;
283 investigations remain active as of March 31. The OIG has obtained 12 criminal indictments,
obtained eight criminal convictions/pleas, no declinations and 12 cases pending prosecutorial review.
The OIG’s more significant casework included revenue protection and referring embezzlement cases
to Amtrak management for disciplinary action.

The OIG Inspections and Evaluations group is continuing to facilitate initiatives to improve the effi-
ciency and effectiveness of the material supply chain in providing parts and materials for Rolling
Stock maintenance. In addition, Inspections and Evaluations has been evaluating the efficiency and
effectiveness of Amtrak’s Right–of–Way maintenance programs. As part of this effort, the OIG
engaged a European consultant that has extensive experience evaluating the infrastructure mainte-
nance programs of European Railroads.

During this period, and as a part of evolution within the OIG community, the OIG created a new
group, the Office of Management and Policy (OMP), to provide mission and administrative support
services by managing: budget formulation and execution; policy development; dissemination of OIG
information, including the semi-annual report; human resources; executive resources; and OIG facili-
ties. OMP ensures performance quality and compliance with current and emerging legislation, and
Honorable Donna McLean
May 30, 2008
Page 2




U.S. Government regulations, directives, and mandates. The office is the primary liaison with the
Government Accountability Office, and other government departments and agencies. The office has
assumed the responsibilities of the former OIG Counter-Terrorism and Intelligence Unit and will
provide security oversight and review of Amtrak’s Office of Security Strategy and Special
Operations.

I want to report that the OIG meets the Internet website requirements called for by the Consolidated
Appropriations Act of 2008 (Public Law 110-161). In addition, the OIG is in the process of making
its Internet website generally consistent with the requirements of Section 13 of S. 2324 (the Inspector
General Reform Act of 2008) and Section 9 of H.R. 928 (the Improving Government Accountability
Act), which are very similar. Once implemented, these improvements will significantly enhance the
OIG’s accessibility and responsiveness.

I want to express my appreciation for the cooperation and support the OIG regularly receive from
Congress and from you as our new Chairman. Finally, I want to recognize the extraordinary dedica-
tion and professionalism of the OIG’s staff, whose performance adds value to Amtrak and the
taxpayers who help support national rail passenger service.

Respectfully,




Fred E. Weiderhold, Jr.
Inspector General
                                                                                                                   Table of Contents

Inspector General Viewpoint                                                                   Office of Inspections and Evaluations
FY 2008 Mid-Year Results . . . . . . . . . . . . . . . . . . . . . . . . . . . 1              Significant Inspections and Evaluations
Amtrak’s Challenges and Opportunities . . . . . . . . . . . . . . . . . 1                        Amtrak Mechanical Operations . . . . . . . . . . . . . . . . . . . 17
Safety and Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2          Operation RedBlock . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                                                                                                 Procurement and Material Supply Chain Management . . . 18
                                                                                                 Amtrak Right of Way Maintenance . . . . . . . . . . . . . . . . 18
                                                                                                 Amtrak Public Funding Review . . . . . . . . . . . . . . . . . . . 19
Amtrak Profile
Amtrak Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3         Human Capital Management . . . . . . . . . . . . . . . . . . . . . 19


Office of the                                                                                 Office of Management and Policy
Inspector General Profile                                                                     Office of Management and Policy . . . . . . . . . . . . . . . . . . . . 20
Office of the Inspector General Profile . . . . . . . . . . . . . . . . . 4

                                                                                              Other OIG Activities
Office of Audits                                                                              Coordination with Independent Public Accountants . . . . . . 21
Significant Audits                                                                            Team Mate Implementation . . . . . . . . . . . . . . . . . . . . . . . . . 21
   Contracts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
   Internal Operations Reviews . . . . . . . . . . . . . . . . . . . . . . . 6
   Self-Insured Health Care Plans . . . . . . . . . . . . . . . . . . . . . 7                 Appendices
   Inventory . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8    Appendix 1. Audit Reports Issued with Questioned Costs . . 24
   Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . 8               Appendix 2. Audit Reports Issued with Funds
Management Responses More Than 180 Days Old                                                               to be Put to Better Use . . . . . . . . . . . . . . . . . . . 25
   for Which Corrective Action Has Not Been Completed . . . 9                                 Appendix 3. Detailed Listing of All Issued Audit Reports . . 26
Unresolved Audit Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10            Appendix 4. Summary of Reports to President of Amtrak
Audit Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10                 Concerning Information or Assistance
                                                                                                          Unreasonably Refused or Not Provided . . . . . . 27
                                                                                              Appendix 5. Review of Legislation and Regulations . . . . . . 28
Office of Investigations                                                                      Appendix 6. Glossary of Audit Terms and Abbreviations . . 29
Case Status of Investigations . . . . . . . . . . . . . . . . . . . . . . . . 11
Case Handling . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Sources of Allegations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                                                                                              Reporting Requirements Index
                                                                                              Reporting Requirements Index . . . . . . . . . . . . . . . . . . . . . . . 30
Hot Line . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Hotline Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Significant Investigations —
   Embezzlement, Theft, Fraud, and Misappropriations . . 12
Classification of Cases Opened During the Period . . . . . . . . 12
Recommendations to Enhance Efficiency,
  Effectiveness and Cost Savings . . . . . . . . . . . . . . . . . . . . 15
Time and Attendance Reviews . . . . . . . . . . . . . . . . . . . . . . . 16
Revenue Protection Unit . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                             Inspector General Viewpoint

 FY 2008 MID-YEAR RESULTS                                             AMTRAK’S CHALLENGES AND
Amtrak continues to benefit from a number of external economic
factors, including soaring fuel prices, a continuing deterioration
                                                                      OPPORTUNITIES
in airline on-time performance and worsening customer service        Amtrak is well-positioned to continue to make Incremental
in that sector. Indeed, the cost of gasoline reached $3.29 per       improvements in its overall performance for the next several
gallon on March 31, up 26 percent over one year ago and 100          years, but there are risks to this upward trend depending upon
percent over five years; airline delays affect more than 22          how well some key risk areas are managed.
percent of aircraft departures and almost 26 percent of arrivals,
the industry’s worst performance in the past decade. Amtrak has
taken advantage of these economic conditions and market oppor-
                                                                     With the mid-year results in, there are very real opportunities for
                                                                     REVENUE OPPORTUNITIES
tunities: revenue yield per passenger mile has increased to $.28,
                                                                     Amtrak to continue to garner additional passenger revenue
an improvement of almost 22 percent over the past four years.
                                                                     growth in FY 2008. Gasoline prices will continue to drive the
Through March 2008, Amtrak continues to experience business          traveling public to consider lower-cost, more environmentally
results better than budget and revenue and ridership forecasts.      friendly, travel decisions, especially with price forecasts
At mid-year, Amtrak has earned $1.169 billion in total revenue       suggesting higher prices for the foreseeable future. Congestion
($928 million in passenger related revenues); total revenue was      and delays at major airports are taking their toll on the patience
14.7 percent greater than over the same period in FY 2007, with      of air travelers, with consumer complaints increasing by more
passenger revenues up 13 percent. Total expenses were $1.047         than 61 percent during 2007.
billion. Amtrak’s adjusted losses, before depreciation, were $220
                                                                     Amtrak’s Acela revenues are up by more than $195 million, or
million, $13 million more than last fiscal year.
                                                                     20.3 percent, over the same period one year ago. Despite already
Total ridership for the year was 13.52 million, up 11.7 percent      serving 56 percent of the combined airline-intercity passenger
over the same period last year, with Acela being a major driver      rail market between Washington, D.C., and New York City,
of performance. Acela’s overall performance, and the challenges      Amtrak still has some excess capacity to meet customer demands
to maintaining and improving upon FY 2008’s results, is              for additional rail services in the Northeast Corridor. Increased
discussed below. Amtrak’s other Northeast Corridor services,         availability of Acela frequencies, and continued consistent and
the Regionals, posted a 14.6 percent increase in revenues, with a    reliable on-time performance, will strengthen Acela’s growing
12.4 percent increase in ridership.                                  dominance in the Northeast Corridor marketplace.
At the national level (excluding Northeast Corridor perfor-
mance), ridership and revenue results have been generally
positive. For Amtrak’s long distance services, Amtrak is besting
the prior year in both revenue (+6.5 percent) and ridership (+7.8
percent). Shorter distance state and regional corridors perfor-
mance is also up, ridership being up 12.6 percent over the same
period, and revenues are up 15.8 percent. There was some note-
worthy growth with the Hoosier State service
(Chicago-Indianapolis) posting a 31 percent ridership growth;
the Lincoln service (Chicago-St. Louis) posting a 28.3 gain; the
Capitol Corridor Service (San Jose-Sacramento) posting a 13.6
percent increase in ridership; and the Keystones (Philadelphia-
Harrisburg) posting a 19.5 percent gain.

                                                                      Auto Train | Lorton, VA




                                                                                                       Inspector General Viewpoint    1
With respect to long-distance rail passenger services, the                For example, Amtrak can prescribe a level of utility -- class of track
Department of Transportation Office of Inspector General                  to permit high-speed operations -- for all sections of the Northeast
(DOT-OIG) issued a report shortly after the end of this reporting         Corridor track infrastructure. High speed is defined by the Federal
period that estimates $98.5 million in financial benefits if              Railroad Administration (FRA) are class 6, 7 and 8 tracks ranging
Amtrak’s long- distance services’ on-time performance (OTP) is            from 110 to 160 mph.
improved to 75 percent. Based upon a previous analysis by the
                                                                          Amtrak can categorize the incremental costs for maintaining track
OIG, the DOT-OIG estimates of labor cost savings appear to be
                                                                          at Class 7 (125 mph) or Class 8 (160 mph), and can tie revenue
aggressive and the DOT-OIG estimates of incremental perfor-
                                                                          projections to scheduled performance. Other efforts can be oriented
mance payments appears to be understated. In addition, the
                                                                          to major bridge and tunnel work, e.g. - to keep the useful life of an
revenue estimate is considerably higher than the estimate
                                                                          asset within 90 percent of its expected useful life before replace-
produced by Amtrak’s revenue demand model.
                                                                          ment. In addition, a more complete inventory of major programs
The OIG continues to recommend that Amtrak concentrate its                and projects, by asset type, should be maintained and shared with
improvement of on-time performance toward four of the long                Congress and rail partners.
distance routes, specifically the Autotrain service, the Coast
Starlight, the San Francisco Zephyr, and the New York-Florida
Silver Services. The OIG has recommended in prior reports that
Amtrak closely examine its long-distance business model for
                                                                           SAFETY & SECURITY
some routes.

                                                                          Amtrak’s overall safety performance has been slowly improving,
                                                                          SAFETY

Approximately 50 percent of Amtrak’s operating expenses relate to         but establishing a well-embedded safety culture in the railroad is
EXPENSE CONTAINMENT

employee wages, salaries, and benefits. It follows that even small        a difficult and long-term task. In fact, while Amtrak was recently
improvements in productivity, when applied across the entire              awarded an E.H. Harriman Certificate of Commendation for
system, can generate significant savings. With the recent settlement      most improvement in employee safety among Class I railroads
of long-standing labor negotiations with all of Amtrak’s labor            from 2006 to 2007, the OIG would like to see Amtrak look
unions, Amtrak must find ways to accommodate the agreed upon              beyond injury statistics alone, which are still less than optimal
wage schedules. These settlements may add as much as $130                 among major Class I railroads.
million to Amtrak’s annual operating expenses. Amtrak must, as
recommended by the Presidential Emergency Board (PEB) more
carefully consider and apply work rules to obtain greater efficiency      During the reporting period, we created a new group, the Office
                                                                          SECURITY
and effectiveness from its workforce. Amtrak must, as recom-              of Management and Policy (OMP), to provide mission and
mended by this Office, modify its approach to maintenance and             administrative support services to the OIG by managing: budget
upkeep of its rolling stock, rationalize the use of its major service     formulation and execution; policy development; personnel secu-
and inspection and back shop facilities, and be more attentive to         rity; dissemination of OIG information; human resources; and
revenue enhancement opportunities.                                        OIG facilities. OMP ensures performance quality and compli-
With respect to capital spending, much of Amtrak’s capital budget         ance with current and emerging legislation, and Government
continues to be invested in restoring the ‘state of good repair’ to the   regulations, directives, and mandates. The office is the primary
Northeast Corridor. The OIG is in strong support of this initiative,      liaison with the Government Accountability Office, and other
but we believe more work is required to lay out a more rigorous           government departments and agencies. OMP has assumed the
analysis of return on capital invested. Amtrak needs to delineate         responsibilities of the former OIG Counter-Terrorism and
specifically the results of these large investment programs and the       Intelligence Unit, and will provide security oversight and review
resulting impacts on revenue and expense reduction.                       of Amtrak’s Office of Security Strategy and Special Operations
                                                                          (OSSSO).




2    Inspector General Viewpoint
                                                  Amtrak Profile
Amtrak is The National Railroad Passenger Corporation incor-
porated under the District of Columbia Business Corporation
Act (D.C. Code § 29-301 et seq.) in accordance with the provi-
sions of the Rail Passenger Service Act of 1970 (Public Law
91-518). Amtrak is currently governed by a seven-member
Reform Board established under the Amtrak Reform and
Accountability Act of 1997 (P.L. 105-134; 49 U.S.C. § 24302).
The company is operated and managed as a for-profit corpora-
tion providing intercity rail passenger transportation as its
principal business.
Congress created Amtrak in 1970 to take over, and indepen-
dently operate, the intercity rail passenger services. Prior to this
America’s private freight companies ran passenger rail as
required by Federal law. Those companies reported they had
operated their passenger rail services without profit for a decade
or more. With this in mind, when Amtrak began service on May
1, 1971, Amtrak eliminated more than half of the rail passenger
routes then operated by the freight railroad companies.
During Fiscal Year (FY) 2007 Amtrak carried approximately 26
                                                                        Coast Starlight | CA


million passengers on up to 315 daily intercity trains over 21,100
train miles serving 513 communities in forty-six states and three      Amtrak employs about 18,400 persons, of whom about 16,000
Canadian provinces. During the first half of FY2008, Amtrak            are agreement-covered employees. These employees work in
ridership is up by more than 10 percent and ticket revenues are up     on-board services, maintenance of way, police, station and reser-
by more than 13 percent over the same period in FY2007. If             vations services, and other support areas.
Amtrak were an airline, it would rank as the nation’s eighth largest
                                                                       Amtrak owns the right-of-way of more than 363 route miles in
domestic carrier in terms of passengers carried and employment,
                                                                       the Northeast Corridor (NEC; including Washington, DC-New
and eleventh in terms of operating revenue ($2.1 billion).
                                                                       York City-Boston, Philadelphia-Harrisburg, and New Haven,
In terms of market-share, Amtrak serves 56 percent of the              CT-Springfield, MA) and 97 miles in Michigan. Amtrak owns
combined airline-intercity rail market between Washington,             105 station facilities, and is responsible for the upkeep and main-
D.C., and New York City. In addition, more than 800,000                tenance of an additional 181 station facilities and 411 platforms.
people commute every weekday on Amtrak infrastructure or on            Amtrak owns 17 tunnels and 1,186 bridges. It owns most of the
Amtrak-operated commuter trains around the country under               maintenance and repair facilities for its fleet of about 2,600 cars
contracts with state and regional commuter authorities.                and locomotives. Outside the NEC, Amtrak contracts with
                                                                       freight railroads for the right to operate over their tracks. The
                                                                       host freight railroads are responsible for the condition of their
                                                                       tracks and for the coordination of all railroad traffic.




                                                                                                                      Amtrak Profile    3
                 Office of the Inspector General Profile
Amtrak’s Office of the Inspector General (OIG) was established
as a statutory entity in April 1989, in accordance with the 1988
amendments (P.L. 100-504) to the Inspector General Act of 1978
(P.L. 95-452; 5 U.S.C. Appendix 3). The OIG is an independent
and objective entity within Amtrak whose mission is to detect
fraud, waste, and misconduct involving Amtrak’s programs and
personnel, and to promote economy and efficiency in Amtrak
operations.
The OIG investigates allegations of violations of criminal and
civil law, regulations, and ethical standards arising from the
conduct of Amtrak employees in performing their work. The
OIG audits and evaluates Amtrak operations and assists manage-
ment in promoting integrity, economy, efficiency, and
effectiveness.
To accomplish these objectives, the OIG establishes policy for
audits and investigations relating to all Amtrak programs and
operations, and conducts, supervises and coordinates these
audits and investigations. Further, the OIG reviews existing and          Arizona
proposed statutes, regulations and policies to evaluate their
effect on economy and efficiency in the agency and on the                inspections of Amtrak programs, providing assistance to
prevention of fraud and abuse and recommends changes as                  managers in their efforts to determine the feasibility of new
appropriate.                                                             initiatives and the effectiveness of existing operating methodolo-
The OIG consists of the following offices with specific                  gies. The evaluative process they utilize, whether requested or
responsibilities:                                                        mandated, consists of independent studies and analytical reviews
                                                                         that often serve as the cornerstone for strategies to improve
The Office of Audits is responsible for conducting independent           program cost efficiency and effectiveness, management, and the
reviews of Amtrak’s internal controls; overseeing and assisting          overall quality of service delivery throughout Amtrak.
audits of Amtrak’s financial statements; reviewing information
technology programs and information security; providing                  The Office of Management and Policy (OMP) provides
accounting counsel to, and oversight of, Finance Department              mission and administrative support services to the OIG by
operations; reviewing certain procurements and material acquisi-         managing: budget formulation and execution; policy develop-
tions for appropriateness of cost, pricing and compliance with           ment; personnel security; dissemination of OIG information;
applicable grant and/or contract terms and conditions; and, moni-        human resources; and OIG facilities. OMP ensures performance
toring compliance with laws and regulations.                             quality and compliance with current and emerging Government
                                                                         regulations, directives, and mandates. The office is the primary
The Office of Investigations is responsible for investigating            liaison with the Government Accountability Office, and other
various types of fraud and abuse particularly allegations of financial   government departments and agencies. OMP also has primary
wrongdoings, kickbacks, construction irregularities, bribery, and        responsibility for Amtrak’s security oversight.
false claims; performing reviews of Amtrak’s safety and security
programs; recommending to the company better internal controls to        The Office of Counter-Terrorism and Intelligence reported
prevent fraud and abuse; and, reporting violations of law to the         in previous reports has transitioned to Amtrak’s Office of
Attorney General and prosecutors. It is also charged with reviewing      Security, Strategy, and Special Operations. Security oversight
and safeguarding Amtrak’s cash and credit card purchases for trans-      responsibilities remain with the OIG and have been integrated
portation and food services on board Amtrak trains.                      within the Office of Management and Policy.

The Office of Inspections and Evaluations is a hybrid unit               There are eight OIG offices located in Washington, DC
whose staff have specialized skills in engineering, safety,              (Headquarters), Baltimore, Wilmington, Philadelphia, New
labor/employee relations, mechanical maintenance operations,             York, Boston, Chicago, and Los Angeles.
strategic planning, and finance. This group conducts targeted

4    Office of Inspector General Profile
                                                Office of Audits
                                                                      The OIG recommended that the questioned costs be recovered in
                                                                      accordance with the terms of the contract. In response to the
                                                                      audit report, management agreed to present the audit findings in
 SIGNIFICANT AUDITS — CONTRACTS
                                                                      its attempt to recover the amount in question. In March 2008,
                                                                      management advised that Amtrak and RailPlan had reached a
Review of RailPlan International, Inc.

                                                                      tentative agreement to settle the audit findings for a total amount
Contract S 050 07001, Change Order COR-001 –

                                                                      of $143,152. A settlement letter has been forwarded to RailPlan
$210,810 in questioned costs

                                                                      for signature.
The OIG completed a post award audit of a change order to a
Audit Report 503-2006 – Issued 11/26/2007


contract with RailPlan International, Inc. (RailPlan) for the
purchase of additional Amfleet I and II ADA and Unisex toilet
                                                                      State of Maine’s “Downeaster” Train Service

modules and for the conversion of Horizon ADA and Unisex
                                                                      Contract Audit

toilet modules to Amfleet II modules. The audit objective was to
                                                                      Amtrak entered into a contract with the Northern New England
                                                                      Audit Report 305-2007 – Issued 12/19/07

determine the accuracy and acceptability of $3,925,413 in
                                                                      Passenger Rail Authority (NNEPRA), an agency of the State of
change order costs billed by RailPlan.
                                                                      Maine, on December 2, 1996, for the purpose of providing inter-
As a result of the audit, the OIG identified a total of $210,810 in   city rail passenger service between Portland, Maine and Boston,
questioned costs, which was primarily due to RailPlan’s use of        Massachusetts. The contract has a term of 20 years from the start
PPIs that were not specific to the items or commodities subject to    of the train service, which began on December 15, 2001.
escalation, namely fiberglass and steel. The contractor was
                                                                      NNEPRA had the responsibility for upgrading the rail lines for
unable to support the material handling rate used and the higher
                                                                      the operation of intercity rail passenger service and providing
G & A rate applied in its billings for conversion items.
                                                                      Amtrak with cab cars for use in the Service. Amtrak is respon-
The OIG recommended that the questioned costs be recovered in         sible for providing locomotives, passenger coaches and food
accordance with the terms of the contract. In response to the         service cars, from its existing equipment pool, to accommodate
audit report, management agreed to present the audit findings in      four daily round trips between Portland and Boston.
its attempt to recover the amount in question. In March 2008,
                                                                      The Downeaster Service recovers approximately 50 percent of
management advised that Amtrak and RailPlan had reached a
                                                                      its annual operating cost from ticket sales. The remaining 50
tentative agreement to settle the audit findings for a total amount
                                                                      percent is recovered through a Grant from the Federal
of $99,659. A settlement letter has been forwarded to RailPlan
                                                                      Government and the State of Maine. The federal grant, which is
for signature.
                                                                      aimed at reducing highway congestion and pollution, expires in
                                                                      September 2008. The State of Maine will assume full responsi-
                                                                      bility for assuming the cost of the service after that date.
Review of RailPlan International, Inc.


                                                                      The purpose of OIG audit was to determine if, for calendar year
Contract S 064 90678, Change Orders COR-002


                                                                      2006, Amtrak and NNEPRA were adhering to the terms and
and COR-003.


                                                                      conditions of the contract; expenditures incurred were accurately
$146,212 in questioned costs


The OIG completed a post award audit of two change orders to a        reported; and, that Amtrak had an accounting system capable of
Audit Report 504-2006 – Issued 11/26/2007


contract with RailPlan International, Inc. (RailPlan) for the         tracking expenditures and receipt of ticket revenue for the
purchase of deluxe dividing door partition assemblies and             service.
mirrors and additional Restroom modules that were previously
                                                                      The OIG’s review determined that Amtrak and NNEPRA were,
purchased under the Superliner Remanufacturing project. The
                                                                      and are, adhering to the terms and conditions of the contract and
audit objective was to determine the accuracy and acceptability
                                                                      allowable costs were accurately accounted for during the period
of $2,325,196 in change order costs billed by RailPlan.
                                                                      of OIG’s review.
As a result of the audit, the OIG identified a total of $146,212 in
questioned costs. The questioned costs were primarily due to
RailPlan’s improper billing for G & A for the dividing doors and
mirrors, which was unauthorized under the contract, and its use
of inappropriate PPIs and PPI beginning period in its price esca-
lation for the additional restroom modules.

                                                                                                                    Office of Audits   5
                                                                   conditions, and agreed to terms and conditions must be adhered
                                                                   to and any change to the contract must be formalized in a change
                                                                   order and documented in the contract file.
    SIGNIFICANT AUDITS –
                                                                   In addition, the OIG noted that 24% of the total number of
    INTERNAL OPERATIONS REVIEW
                                                                   concrete tie inventory issues for the period October 2006 through
                                                                   December 2006 indicated that the inventory transactions was not
                                                                   charged to the proper work element resulting in improper capital
Review of Arnold Worldwide Advertising Expenses


The OIG performed a limited scope review of Arnold                 project costing. The OIG recommended and management
Audit Report 206-2007 – Issued 10/17/07


Worldwide Advertising to determine whether management              agreed that Amtrak Engineering provide Store Attendants with
controls were in place over the procurement and payment of         accurate written notification when requesting inventory.
advertising, whether programs were approved and administered
                                                                   The OIG is reviewing other issues relating to the provision of
in accordance with their advertising plan and if payments were
                                                                   concrete ties to Amtrak under the Rocla contract. A number of
consistent with the Agreement. Amtrak’s expenditures to
                                                                   concrete ties have prematurely failed, well before their end of
Arnold Worldwide Advertising totaled approximately $18.9
                                                                   useful life. Further OIG reviews are planned for this contract.
million in FY2006. The audit results disclosed that services
were rendered, and charges were adequately supported in accor-
dance with the Agreement and that expenditures were properly
                                                                   Beech Grove Wreck Audit

processed and approved.
                                                                   The OIG has completed a review of wreck repair work
                                                                   Audit Report 405-2007 – Issued 3/31/08


                                                                   completed during FY2007. The purpose of the review was to
                                                                   determine whether the Mechanical Department’s cost control
Review of Rocla Concrete Tie Inventory and Procurement

                                                                   environment accurately and properly captured and reported all
$1.3 million funds that could have been put to better use

                                                                   costs associated with wrecked passenger cars repaired/rebuilt at
As a result of findings in a previous audit report (Report #226-
Audit Report 218-2005 – Issued 03/20/08

                                                                   Beech Grove.
2004), the OIG performed an audit on the inventory and
procurement process associated with concrete ties procured from    The OIG found that Amtrak’s Beech Grove Mechanical Facility
Rocla Concrete Tie, Inc. (Rocla). During FY2002 to FY2007          does not accurately and properly capture and report all costs
Amtrak issued purchase orders to Rocla totaling approximately      associated with wrecked passenger cars repaired/rebuilt at Beech
$46 million. The OIG examined seven purchase orders for the        Grove. The audit found that the lack of adequate timekeeping
period October 2005 through December 2006. During the period       controls and internal control weaknesses caused the labor costs
reviewed, there was a June 2, 2003, Supplies Contract              to be inaccurately captured and reported.
Agreement and a subsequent Agreement dated April 21, 2006, in
place. The OIG noted that unit prices for five of the seven        The OIG provided detailed recommendations to strengthen
purchase orders reviewed did not agree with the contract unit      internal controls and improvements to the timekeeping process
pricing set forth in the June 2, 2003, Supplies Contract           to ensure greater effectiveness and efficiency of operations,
Agreement. Based on the analysis, invoices were submitted that     improve the reliability of financial reports, ensure compliance
included surcharges which were applied to unit prices that         with company policies and procedures, and avoid poor business
already contained an annual Producer’s Price Index adjustment      decisions based upon inaccurate data.
resulting in an over billing of approximately $1.3 million.
Procurement indicated that although not documented, changes
                                                                   Review of Amtrak Backshop, Beech Grove In-sourcing –

were made to the agreement. Reference was noted in the vendor
                                                                   New Jersey Transit Overhauls

files and in Amtrak staff summaries; however Procurement was
                                                                   The OIG completed a review of the Beech Grove in-sourcing
                                                                   Audit Report 215-2007 – Issued 03/26/08

unable to provide documentation to support contract changes
that was signed by both parties. Absent a formal contract change   process associated with the sale and overhaul of four P-40 loco-
(change order) or documentation to support the change the OIG      motives to New Jersey Transit (NJT) to determine whether
audited against the signed Agreement and viewed the over           Amtrak made a profit on the overhauls and that the in-sourcing
billing as extraordinary contract relief.                          activity was in accordance with corporate policies.

The OIG recommended and management agreed that manage-             The OIG determined that Amtrak generated an average profit of
ment adhere to Amtrak’s Procurement Manual by adequately           $70,387 per locomotive overhaul after all costs were applied to
documenting and formalizing changes to contract terms and          the contract price and that Amtrak generated a net cash savings

6    Office of Audits
of $1,247,159 by satisfying the liens on the locomotives early via
a Special Purchase Option.
The audit revealed varying degrees of management noncompli-
ance with corporate insourcing policies. The audit found that
management did not properly route the Senior Staff Summary to
all departments, specifically, the Chief Finance Office and the
OIG for the required financial reviews and management failed to
obtain force account insurance. The OIG found the overhaul
procedures commenced without an executed agreement on
equipment neither party owned. Management agreed with the
findings.
                                                                        California Zephyr | Donner Pass, near Truckee, CA


Further, management released the equipment to NJT without the
contract stipulated acceptance and without receipt of the related      Based on the review, the OIG recommended that the vendor
payments. The OIG observed that the P-40 locomotive fleet in           implement a process to provide adequate documentation to
storage at Bear, DE is not maintained in accordance with lien          support the amount of ballast invoiced. And, the OIG recom-
provisions.                                                            mended that management perform a review of projects charged
                                                                       for ballast to ensure that charges are accurately entered; imple-
                                                                       ment a formal internal process to identify the contents of ballast
                                                                       rail cars to ensure proper credit from the vendor; and, ensure that
Review of Unbilled Expenses for Rhode Island Contract


In January 2007, the OIG determined that Amtrak failed to              personnel responsible for compiling data on internal reports
Audit Report 204-2006B – Issued 03/26/08


invoice the State of Rhode Island an estimated $740,000 in reim-       record the information accurately.
bursable maintenance of way and conductor/flagmen force
account labor expenses. Based on the OIG’s recommendation,
management performed a comprehensive study which identified
$1,341,757 in unbilled labor expenses associated with force
                                                                        SIGNIFICANT AUDITS –
accounts. To date, Amtrak has received $315,296 in reimburse-
ments from the State of Rhode Island. The OIG reissued the
                                                                        SELF-INSURED HEALTH CARE PLANS
January 2007 audit report in March 2008 to update the results of
the audit.
                                                                       Review of Insurance (AmPlan) Claims for Commonly
                                                                       Abused Medical Billing Codes
Review of Track Ballast Expenses                                       Patterns indicative of abusive or fraudulent billing codes
Discrepancies and weak controls                                        identified


                                                                       Amtrak administers a self-insured healthcare plan, AmPlan, for
                                                                       Audit Report 102-2006 – Issued 3/26/08

The OIG completed an audit of ballast expenses to determine the
Audit Report Number 216-2007 – Issued 03/31/08


adequacy and effectiveness of vendor invoicing, determine the          its agreement-covered employees. Amtrak spends over $200
vendor’s process to account for rail cars that are returned to their   million per year to cover healthcare expenditures for over 60,000
quarry not completely empty, assess the adequacy of Amtrak’s           employees and their family members. The National Healthcare
process for receiving and issuing ballast, and determine whether       Anti-Fraud Association (NHCAA) estimated that at least 3
or not Amtrak’s projects are properly charged for ballast usage.       percent of the nation’s healthcare expenditures, or $51 billion, is
                                                                       lost to fraud. Other estimates by government and law enforce-
The review revealed inadequate documentation to support                ment agencies place the loss as high as 10 percent of annual
vendor invoicing; a lack of separation of duties in the charge-out     expenditures, or $170 billion each year.
process and an inadequate process to quantify the credits
received by the vendor for ballast returned to the vendor’s            Medical billing fraud is committed by using certain billing codes
quarry. The review noted discrepancies in internal reports asso-       that are often abused or over utilized. The OIG performed a
ciated with the number of ballast rail cars utilized to transport      review of the AmPlan claims to determine if there were any
ballast to a site.                                                     patterns indicative of abusive or fraudulent billing. The key
                                                                       findings of this review include instances of repetitive and
                                                                       abusive billing; unusually high volume of claims for a single-

                                                                                                                            Office of Audits   7
person practice; and, instances where the highest level billing      launched network service exploits to malicious codes spread
code was used to generate unusually high numbers of claims.          through emails, spam, questionable websites, and file downloads.
In each case, the OIG concluded that further investigation would     The primary objective of the OIG review was to determine
be necessary to ascertain if the billings are in fact fraudulent.    whether an effective system of network and operating system
                                                                     security was established to protect Amtrak’s information
                                                                     resources. While Amtrak has improved security controls in
                                                                     some areas such as virus and spam control, and perimeter secu-
    SIGNIFICANT AUDITS – INVENTORY                                   rity including firewall and intrusion detection, it still lacks
                                                                     sufficient security controls in many areas, well-documented poli-
                                                                     cies and procedures, and repeatable processes to mitigate and
                                                                     manage security risks. The OIG found the following exceptions
Review of Cycle Inventory – Wilmington, DE, M/E Shop

                                                                     that require management attention:
and Boulden, DE, Facility


The OIG conducted an observation of cycle inventory at the
Audit Report 217-2007 – Issued 11/20/07

                                                                         Amtrak has not implemented a consistent, comprehensive,
Wilmington, DE, Shops and the Boulden, DE, Facility and found            end-to-end information risk management security program
                                                                     ■

that the inventories were generally taken in accordance with             and framework to protect its information resources. Data and
instructions. Management agreed with and adequately addressed            security classification has not been implemented to protect
the OIG’s recommendations.                                               sensitive and critical resources from loss, misuse, and unau-
                                                                         thorized access or modification.
                                                                         There are servers which do not comply with Amtrak’s infor-
Review of FY2007 Annual Maintenance of Way Inventory

                                                                         mation security policies, guidelines, and best practices, and
                                                                     ■
At the request of Amtrak’s external auditors, the OIG conducted
Audit Report 213-2007 – Issued 12/19/07


inventory observations at 15 Maintenance of Way (M/W) stores.            therefore are vulnerable to attacks. Audit found outdated
Management reported a net variance for all 49 stores of -0.13            software, the latest service packs/security patches missing,
percent and a gross variance of 4.62 percent. For the 15 stores          unnecessary open ports and services, open shares containing
observed by the OIG, the FY 07 percentage dollar variances               sensitive and confidential information, weak passwords, and
were 2.10 percent net and 2.74 percent gross. The FY 07 vari-            an excessive number of administrator and shared accounts.
ances for the 15 stores observed was acceptable.                         To proactively guard against security attacks and breaches,
                                                                         Amtrak needs to improve its compliance monitoring, log
                                                                     ■
The OIG found, however, that the trend of increasing M/W valu-
ation from $40,629,194 to $54,052,358, a 33.04 percent FY07              review, and enforcement of security policies.
increase; and, there was a decreasing inventory turnover from            Effective technology controls have not been implemented to
2.44 in FY2004 to 1.46 in FY2005 to 1.33 in FY2006 to 0.95 in            protect business data stored on laptops and other roaming
                                                                     ■

FY2007. This trend continued into FY2007.                                devices.
                                                                         Amtrak does not require comprehensive background checks
                                                                         for IT contractors and employees. Current physical security
                                                                     ■


                                                                         controls at Washington, DC, offices do not provide adequate
                                                                         safeguards.
    SIGNIFICANT AUDITS –
    INFORMATION TECHNOLOGY
                                                                         Employees and contractors are not provided comprehensive
                                                                         information security orientation, training, and periodic
                                                                     ■


                                                                         refresher education that effectively communicates Amtrak’s
Information Security Review

                                                                         information security policies and practices.
Information security controls need improvement


Due to the consolidation of the business units and information       Management agreed with all of the OIG’s findings and recom-
Audit Report 107-2004 – Issued 3/31/08


technology (IT) infrastructure, more business critical information   mendations. The current Amtrak IT leadership has shown the
is now centralized at Amtrak. Because of the various entry points    serious commitment and urgency to appropriately address the
into Amtrak’s systems, dependence on contactors, and limited         long outstanding security weaknesses, and significantly improve
resources committed to security administration, Amtrak’s infor-      Amtrak’s security posture.
mation resources are vulnerable to threats ranging from remotely

8    Office of Audits
                                                                      MANAGEMENT RESPONSES MORE
                                                                      THAN 180 DAYS OLD FOR WHICH
                                                                      CORRECTIVE ACTION HAS NOT
                                                                      BEEN COMPLETED
                                                                     The OIG continues to monitor and follow up with management
                                                                     on corrective action measures. The following items were
                                                                     reported in previous semiannual reports and additional informa-
                                                                     tion is being reported.

 Coast Starlight | Pacific Coast
                                                                     Review of Union Pacific Corporations (UP) Billing
                                                                     Processes
                                                                     $144,659 Excess Billings Identified


                                                                     Effective January 1, 2000, The National Railroad Passenger
                                                                     Audit Report 407-2004 – Issued 03/07/2007
Analysis of Overtime Wages

                                                                     Corporation entered into an agreement with the Union Pacific
Stronger oversight required to control excessive overtime

                                                                     Railroad Company (UP), which consolidated the four previous
At present, 15 collective bargaining labor agreements govern
Audit Report 105-2007 – Issued 1/9/08

                                                                     contracts for the Southern Pacific, the Union Pacific, the
how Amtrak workers are paid for overtime work. In calendar           Southern Pacific Central States Line, and the Denver and Rio
year (CY) 2006, Amtrak incurred about $137 million or 16             Grande Western Railroads for intercity rail passenger operations
percent in overtime wages out of a total of $851 million in wages    on tracks and properties owned by UP. Under the agreement
paid to about 18,500 agreement-covered employees. The OIG            provisions, the UP bills Amtrak each month for specific services
performed a limited scope review of the overtime wages paid in       and facilities for intercity rail passenger operations. The purpose
CY2006 because of the inherent risk of fraud, waste and abuse.       of the OIG audit was to determine the accuracy, reasonableness,
The primary objective of the OIG review was to analyze the           and validity of the charges the UP billed Amtrak for selected
overtime wages of agreement-covered employees who earned             items and to develop an audit adjustment claim if appropriate.
more than $100,000 in total wages during the calendar year           The OIG audit from January 1, 2002, through December 31,
2006. This total amounted to $7.5 million out of the $137            2003, and consisted of analyzing the UP’s monthly billing costs,
million in total overtime wages.                                     records, payments, technical opinions, vendor invoices, Amtrak
The OIG found that the top five job titles of agreement covered      delay reports, internal/external letters and memoranda, historical
employees earning over $100,000 were Engineer, Foreman,              documentation of similar railroad billings, where available, and
ARASA Supervisor, Conductor, and Electric Tech/Specialist;           other information, as deemed necessary.
and top five locations were New York, Philadelphia, New              The OIG recommended that management initiate a final settlement
Haven, Boston, and Oakland districts. The OIG identified             letter and that monies due Amtrak be collected. Management
instances of potential fraud, waste and abuse that require further   verbally agreed, but has not provided a written response to this audit.
investigation and action by management.
The OIG recommended that management review policies,
                                                                     Reviews of Southern Pacific Central States Line

processes and practices for the assignment and distribution of
                                                                     Questioned costs not yet resolved

overtime and enhance controls over the approval of overtime.
Management agreed to take necessary action to address most of
                                                                     Audit Report 01-506 – Response 09/04/2001

the internal control weaknesses identified.
                                                                     Audit Report 01-507 – Response 09/04/2001
                                                                     Audit Report 01-508 – Response 10/12/2001


                                                                     Effective January 1, 2000, the four previous contracts Amtrak
                                                                     Audit Report 01-509 – Response 10/12/2001


                                                                     had with Southern Pacific Central State Line (SPCSL), Denver

                                                                                                                      Office of Audits    9
and Rio Grande Western Railroad Company, the Southern
Pacific Transportation Company, and the Union Pacific Railroad
Company were consolidated into one new contract with the
                                                                       UNRESOLVED AUDIT ISSUES
Union Pacific Railroad Company (UP). With the consolidation,          Appendices 1 and 2 show the status of management decisions on
the UP became the railroad responsible for the negotiation and        audit recommendations and dollar values of questioned costs,
settlement of the SPCSL audit findings. Since the issuance of         unsupported cost, and funds to be put to better use.
the four SPCSL audit reports, the total questioned cost of
                                                                      Section 5(a)(10) of the Inspector General Act of 1978 (P.L. 95-
$946,559 has been revised to $703,058.
                                                                      452; 5 U.S.C. Appendix 3), requires “a summary of each audit
The OIG has presented to the UP the revised total through             report issued before the commencement of the reporting period
written correspondences and also at a meeting with the UP repre-      for which no management decision has been made by the end of
sentatives on February 27, 2008. The UP indicated that                the reporting period.” Such reports are shown in Appendices 1
negotiations of the SPCSL questioned costs would begin after it       and 2.
has had an opportunity to review all findings related to the audits
                                                                      In addition, 5 U.S.C. APP. 3 § 5(a)(11) requires “a description
of the previous contracts with the Southern Pacific Railroad and
                                                                      and explanation of the reasons for any significant revised
the Union Pacific Railroad.
                                                                      management decision made during the reporting period.” There
                                                                      were none during this reporting period. Finally, 5 U.S.C. APP.
                                                                      3 § 5(a)(12) requires “information concerning any significant
Mass Transit Products, Inc. –

                                                                      management decision with which the Inspector General is in
Termination for Default for Superliner I Overhaul

                                                                      disagreement.” No such decisions were made during this
Questioned Costs of $63,184

                                                                      reporting period.
The Procurement and Materials Management Department is still
Audit Report 219-2005 – Response 01/25/2006


involved in ongoing settlement negotiations with the contractor
and their suppliers. The questioned costs are $63,184. The OIG
continue to monitor the actions taken.                                 AUDIT STATISTICS
Physical Inventory of ACELA High-Speed Rail Parts                      Status of Audit Projects
                                                                       Audits in progress at 10/1/07                            43
Questioned Costs of $222,186

                                                                       Audit projects postponed or cancelled                     2
The OIG assisted in counting the Acela Parts inventory that was
Audit Report 215-2006 – Response 02/23/2007

                                                                       Audit projects started                                   19
owned by the Bombardier/Alstom OEM consortium. Further,
the OIG performed and are currently assisting in a pricing             Audit reports issued                                     15
review. Questioned costs were originally identified as $222,186;       Audit projects in progress 3/31/08                       45
however, there are still under-priced items and items that have
not been entered into Amtrak’s Accounting, Material and
Purchasing System (AAMPS). The OIG will continue to
                                                                       Audit Findings
                                                                       Questioned costs                                  $398,896
monitor.
                                                                       Unsupported costs                                        $0
                                                                       Funds to be put to better use                   $6,390,505
                                                                       To tal                                        $6,789,401




10    Office of Audits
                                        Office of Investigations

 CASE STATUS OF INVESTIGATIONS                                                  HOTLINE
 10/1/07 – 3/31/08
                                                                               The fraud OIG HOTLINE program has continued to provide
 Total Open Cases as of 10/1/07                                        276
                                                                               employees or third parties an opportunity to report allegations of
 Closed Cases                                                          (62)    fraud, waste, abuse, and other wrongdoing. Employees can access
 Opened Cases                                                           69     the HOTLINE 24 hours a day by calling Amtrak Telephone
                                                                               System (ATS) number 728-3065 in Philadelphia and the toll free
                                                                               number (800) 468-5469 if outside Philadelphia. During working
 To tal Ong o i ng Cas es as o f 3 / 3 1 / 0 8                         283

                                                                               hours from 9:00 a.m. to 4:30 p.m., the OIG answer callers on the
                                                                               HOTLINE system. During other hours or during those occasions
                                                                               when staff are away from the office, callers can leave a message
                                                                               on the HOTLINE answering machine.
 CASE HANDLING
The OIG receives allegations from many sources, including                      People may write in confidentially to P.O. Box 76654,
employees, confidential informants, Congressional sources,                     Washington, DC 20013. The OIG received nine telephonic
federal agencies and third parties. Presently, The OIG are                     HOTLINE complaints during this reporting period, which is an
handling 283 investigations; in the last six months, the OIG                   increase from the previous reporting period. The majority of
opened 69 cases and closed 62 cases.                                           HOTLINE complaints received during this reporting period
                                                                               were made by anonymous sources and private citizens.

 SOURCES OF ALLEGATIONS
As set forth in the chart below, entitled “Sources of Allegations,”
                                                                                HOTLINE STATISTICS
                                                                                10/1/07 – 3/31/08                                         Total
employees and anonymous referrals accounted for about 61
percent of the allegations during this reporting period, with
employees being the source of 33 of the 69 allegations, or 48
                                                                                Hotline Complaints Received                                    9

percent. All allegations are reviewed, screened and resources are
allocated based upon, among other things, the seriousness of the
                                                                                Sources of Hotline Complaints
allegations and potential harm to Amtrak or the public.                         Amtrak Employee                                                1
                                                                                Anonymous Source                                               7
                                                                                Confidential                                                   1
 SOURCES OF ALLEGATIONS
 10/1/07 – 3/31/08
                                                                                Classification of Complaints
                                                                                Administrative Inquiry                                         5
                                                 Referred by Audit 9            Criminal – Other                                               1
                                                                                False Time and Attendence                                      1
                                                                                Theft/Embezzlement                                             1
                                                 Referred by Fed/State/Local
                                                 Law Enforcement 4

                                                 Private Citizen 1              Fraud                                                          1

                                                 Referred by Other OIG 1        Complaints Referred To:
                                                 U.S. Congress 1                OI Field Offices                                               8
                                                                                Amtrak Police                                                  1
                                                 Other 2



                                            Amtrak Employee
                                                  33
      Confidential
      Informant 6


          Anonymous
           Source 9              Former
                            Amtrak Employee 3


                                                                                                                    Office of Investigations   11
 SIGNIFICANT INVESTIGATIONS —                                          CLASSIFICATION OF CASES OPENED
                                                                       DURING THIS PERIOD
                                                                       10/1/07 – 3/31/08
 EMBEZZLEMENT, THEFT, FRAUD, AND
 MISAPPROPRIATIONS
Embezzlement sometimes involves falsification of records in            Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                                                                       Ty pe                                                                        Number


order to conceal the theft. Embezzlers commonly steal relatively       Other Criminal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
small amounts repeatedly over a long period of time as was the         Theft/Embezzlement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
situation in the case outlined below.
                                                                       False Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
In connection with the OIG’s investigation of a San Francisco          False Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
station agent who was indicted for embezzling nearly $250,000,         False T&A Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
on March 5, 2008, he pled guilty to violating 18 U.S.C. § 666 –
                                                                       Waste . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
theft concerning programs receiving federal funds. The station
agent is scheduled to appear for sentencing in United States           Abuse of Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
District Court on June 11, 2008. He faces possible imprisonment,       Mismanagement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
as well as a fine and restitution. In addition to any punishment       Conflict of Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
which the Court imposes, the OIG is requesting that the Court
                                                                       Administrative Inquiries . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
order forfeiture and full restitution of the embezzled funds.
                                                                       Other Non-Criminal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Theft and fraud is a problem which affects many organizations,
regardless of size, location, or industry. Due to the nature of
Amtrak’s business, geographic dispersion, and the level of cash
                                                                       TOTAL                                                                                69


transactions, on-board trains and within stations, there are many
areas at risk for embezzlement and/or theft of company assets.        case, during this reporting period, ten (10) LSAs pleaded guilty
                                                                      in the Circuit Court of Cook County for violating Chapter 720,
Amtrak has implemented certain procedures to assure time and          Act 5, section 16-1-a (1)A of the Illinois Compiled Statutes,
cost savings in its daily business. Despite its efforts, similar to   1999 as Amended, for failure to remit more than $44,632 in
many large organizations, there exists the potential for Amtrak       Amtrak funds.
employees, vendors and others to exploit gaps in the system for
financial gain. The negative impact to the organization’s reputa-     Eight of the former LSAs were sentenced to one year of court
tion, employee morale, and the management-employee                    supervision, and two were sentenced to 18 months of court
relationship as a result of these unauthorized and potentially        supervision. The court ordered restitution in the amount of
illegal actions results in financial harm.                            $3,800, not including over $22,000 already recovered.
In addition to employee-related theft and fraud, the OIG has
reason to investigate theft or fraud committed by passengers,
vendors, consultants, and other outside parties. As a result, the     OIG agents found that an employee in the payroll department
                                                                      PAYROLL FRAUD

OIG spends considerable time and effort towards identifying and       converted approximately $20,000 in Amtrak employee
addressing these issues. Additional significant investigations        unclaimed property, by using unauthorized checks made payable
related to theft, fraud, misappropriations, or other criminal         to a second Amtrak employee. As a result of OIG’s investiga-
activity include the following:                                       tion, management terminated both employees.



                                                                      In conjunction with the use and issuance of company vehicles,
CHICAGO FOOD SERVICE EMPLOYEE                                         MISUSE OF FUEL CREDIT CARDS

In a previously reported OIG investigation, the OIG discovered        Amtrak issues fuel credit cards to be used for the sole purpose of
MISAPPROPRIATIONS

collusion between a former Chicago Debriefing Office clerical         purchasing fuel for Amtrak vehicles. While there are established
employee and several lead service attendants (LSAs), who failed       corporate procedures for the management and control of fuel
to remit Amtrak funds from on-board sales. With respect to this       credit cards, the abuse of fuel credit cards continues to be
                                                                      reported. The following reflects an investigation in this area,
12    Office of Investigations
The Amtrak OIG received an allegation from the General
Services Administration (GSA) Office of Inspector General
                                                                        OIG agents received an allegation that an Amtrak Conductor had
                                                                        FAILURE TO SAFEGUARD COMPANY PROPERTY
regarding suspicious credit card activity pertaining to an
                                                                        accrued $5,000 in phone charges for a company-issued cell phone.
employee-issued GSA Voyager Fuel Credit Card. The resulting
                                                                        It was discovered that the conductor reported that the phone had
investigation found that the fuel credit card was used to purchase
                                                                        been lost or stolen subsequent to notification of the phone charges.
more than $565 worth of food for the employee’s own consump-
                                                                        As a result, the conductor was charged in a company proceeding
tion. As a result of the investigation, management counseled the
                                                                        with not safeguarding company property, received a three day
employee and required him to pay full restitution.
                                                                        suspension and, although there was no charge for the phone use,
                                                                        paid restitution for the phone accessories.
MISUSE OF PROCUREMENT CHARGE CARDS

The Amtrak Procurement Charge Card Program has been
(PCARDS)
                                                                        The OIG investigated an employee for removing scrap materials
                                                                        THEFT OF AMTRAK PROPERTY

designed to support the purchase of low dollar business expense         from Amtrak’s 16th Street Yard in Chicago, Illinois, and
items in the most economical method possible. The PCard is              collecting proceeds from the sale of the materials to a scrap yard.
designed to be used for Amtrak business purchases only and is not       The employee admitted to an OIG agent that the employee had
to be used to purchase personal goods and services. Despite these       removed various scrap materials from Amtrak property and
requirements, an OIG review identified violations in the use of         retained the funds received from the sale of the items for his
PCards, such as those illustrated in the following paragraphs.          personal gain. The employee was administratively charged for
OIG conducted an investigation into a Michigan engineering              violating Amtrak’s Standards of Excellence and subsequently
clerk’s unauthorized use of a PCard. OIG found that the clerk           terminated.
used the Amtrak PCard to purchase numerous items for personal
use, including tax preparation software and swimming pool
supplies totaling $2,222. OIG issued an Administrative Report           It is Amtrak’s policy to provide free and reduced-rate personal
                                                                        AMTRAK RAIL PASS ABUSE

to Management, and the clerk was subsequently administratively          travel transportation for its employees and their eligible depen-
charged and resigned from Amtrak.                                       dents. If the Rail Pass is used fraudulently or inappropriately,
The OIG referred the matter to the Michigan State Police and the        where an individual knowingly falsifies information or permits
Berrien County Prosecutor’s Office. On December 17, 2007, the           the unauthorized use of pass privileges, the Corporation reserves
clerk pleaded guilty to one count of embezzlement by an Agent           the right to suspend or revoke Rail travel privileges.
of Trust, MCL 750.174(4)(a), in the Fifth District court of the         During this reporting period, an OIG investigation found that an
State of Michigan, in Niles Michigan. The clerk was sentenced           Amtrak Mechanical employee fraudulently obtained tickets for a
to two years probation, and ordered to pay $2,222 in restitution        friend using his assigned Rail Pass. The employee’s actions
to Amtrak. Amtrak has received the $2,222 restitution payment.          resulted in a potential loss of about $600 in revenue to Amtrak.
Another Amtrak employee used her Amtrak assigned PCard, without         The employee subsequently received a 30 day suspension as well
authorization and while on vacation, resulting in three unauthorized    as lifetime loss of rail travel privileges for himself and his wife.
purchases of a personal nature. As a result of the investigation, the
employee was found to be in violation of Amtrak’s Standards of
Excellence and terminated from Amtrak service.
                                                                        MISUSE OF EMPLOYEE RETIREMENT RECOGNITION

The OIG determined that an Amtrak Engineering Department                Amtrak has established a policy to recognize Amtrak employees
                                                                        PROGRAM

employee had used the company PCard to purchase an electric             for their years of service by presenting appropriate retirement
power hammer for Amtrak-related work. However, the subse-               mementos and hosting a departmental reception. Pursuant to
quent investigation found that the employee took the power tool         company policy, the cost of the reception should be less than $100.
home for use on a personal home project ultimately depriving
                                                                        During a routine OIG investigation on another issue, the OIG
Amtrak of the use of that tool for about two months. As a result,
                                                                        discovered that during a three year period between 2004 and
the employee was counseled and the Engineering Department’s
                                                                        2007 this policy had been violated by exceeding the cap of $100
unwritten policy allowing employees to take small tools home
                                                                        in the reception cost more than 30 times by various departments.
was discontinued.
                                                                        In one instance, an Amtrak department spent about $3,000 in

                                                                                                              Office of Investigations   13
Amtrak funds for one retirement party. As a result of the OIG’s
finding and report, Amtrak Human Resources Department is
                                                                      MAIL FRAUD COMMITTED BY FORMER AMTRAK
reviewing, modifying, and updating this policy.
                                                                      In June 2007, the OIG was informed that an Amtrak employee
                                                                      EMPLOYEE

                                                                      was under investigation by the United States Postal Service for
                                                                      defrauding the National Academy of Sciences (NAS) of
As the result of an allegation from a confidential source, an OIG     $1,231,108. At the time, the employee was working for Amtrak
MISUSE OF CATERING CONTRACT

investigation found that senior engineering management at an          in the Reprographics Department in a similar capacity as he had
Amtrak facility had allowed more than $4,000 to be spent in           been with NAS. When this was brought to the attention of his
excess of the limits on a catering contract for safety luncheons.     supervisors, the employee was terminated and his computer
More than $3,100 of this amount was spent unnecessarily for           seized by OIG Agents. After a thorough OIG investigation, it
meals not consumed. In conjunction with the OIG findings, the         was determined that the former employee did not continue his
division engineer responsible for the facility received a Letter of   fraudulent activity while in Amtrak employment.
Instruction, the assistant division engineer received a Letter of
Reprimand, oversight was tightened and department-wide                The former employee pleaded guilty in the United States District
spending guidelines were strengthened.                                Court of the District of Columbia to one count of Mail Fraud and
                                                                      one count of Aiding and Abetting. On January 18, 2008, the
                                                                      former employee was sentenced to serve concurrently 41 months
                                                                      for mail fraud and 36 months for Causing an Act to be Done and
The OIG worked jointly with the Amtrak Police Department              was ordered to pay $1,231,108 in restitution to NAS.
MISUSE OF PASSENGER LAPTOP

(APD) in locating an Amtrak employee who may have taken,
and was ultimately in possession of, a passenger’s laptop
missing from a train in Washington, D.C. An OIG special agent
                                                                      UNAUTHORIZED RAILROAD RETIREMENT BOARD
located the employee, an assistant conductor. Upon questioning
by the APD, the employee admitted to using the laptop for             The Railroad Retirement Board (RRB) is an independent entity
                                                                      BENEFITS

personal use. Subsequently the laptop was returned to the             in the executive branch of the Federal Government. The RRB’s
passenger by the APD, and the employee was terminated for             primary function is to administer comprehensive retirement-
violating Amtrak’s Standards of Excellence.                           survivor and unemployment-sickness benefit programs for the
                                                                      Nation’s railroad workers and their families. Abuse of these
                                                                      benefits is not uncommon. The following two examples illus-
                                                                      trate these types of abuse.
CITIZENS VICTIMIZED BY CONFIDENCE MAN POSING

In August 2006, three District of Columbia citizens reported they     The OIG received an allegation from, and worked jointly with,
AS AMTRAK EMPLOYEE

had been victimized by a confidence man representing himself as       the RRB Office of Inspector General in researching and
an Amtrak night supervisor in search of people to work as coach       providing information towards the sentencing of a former
cleaners on the midnight shift. The confidence man told the citi-     Amtrak employee for more than $250,000 in Railroad
zens they had to pay $140 each for uniforms and shoes. Once the       Retirement and Veteran’s Administration survivor benefits
perpetrator received the requested money from the victims, at         fraud. As a result the joint investigations the former employee
either the Ivy City facility or Union Station in Washington, D.C.,    was indicted for theft of government funds. He was sentenced to
he would escape through a restricted entry door. Working along        three years supervised probation and required to pay $132,968 in
with the APD, OIG agents were able to identify the suspect who        restitution to RRB as well as $136,948 restitution to the Veterans
was subsequently arrested and charged with attempted fraud.           Administration.

OIG Agents were able to obtain the cooperation of two victims         As the result of an allegation and the subsequent OIG investiga-
who positively identified the suspect. OIG Agents subsequently        tion, it was revealed that an Amtrak LSA had submitted
sought and obtained an arrest warrant. In December 2007, the          fraudulent medical documentation in support of an on-the job
suspect plead guilty in the District of Columbia to Theft II and      injury. During the interview phase of the investigation, the LSA
received a sentence of 120 days in jail, and was ordered to pay       indicated he had obtained blank copies of a doctor’s letterhead
full restitution to the victims.                                      and completed the medical documentation, including the applic-
                                                                      able doctors’ signatures, resulting in the receipt of over $7,000 of
                                                                      Railroad Retirement funds. As a result of these actions, the LSA
                                                                      was terminated from Amtrak on February 6, 2008.

14    Office of Investigations
The OIG received an allegation that a New England station
MISUSE OF LEAVE OF ABSENCE

manager had mishandled the Transportation Communications
Union (TCU) Leave of Absence (LOA) Rule, which allows 30
calendar days or less leave of absence for personal reasons upon
approval of the employing officer. The subsequent investigation
revealed two TCU employees had been permitted extended
periods of leave, beyond the 30 days allowed, in order to serve jail
sentences related to Driving Under the Influence (DUI) charges.
In addition, the manager had paid one of the employees several
days of sick leave in conjunction with the LOA knowing full well
that the absence was not sick related. As a result the manager was
placed on 120 days of probation.
In conjunction with the above investigation related to medical
fraud, the OIG discovered another employee had submitted docu-
ments for personal gain to Human Resources in which he had
forged his supervisor’s signature in an attempt to misrepresent his
                                                                        Empire Builder | Glacier National Park


absence as one of personal injury rather than incarceration. As a
result of OIG’s findings, the employee was terminated.                 once been used the equipment itself was not operable. As a result
                                                                       of the OIG findings, management advised the OIG that corrective
                                                                       action would be taken in the way of streamlining the two afore-
 RECOMMENDATIONS TO ENHANCE                                            mentioned entities and installing a viable card key system.

 EFFICIENCY, EFFECTIVENESS AND
                                                                       The OIG received an allegation that Engineering Department
                                                                       PURCHASE OF PRODUCTION EQUIPMENT
 COST SAVINGS
                                                                       Management was circumventing the procurement policies and
An important function of the OIG is providing information and          procedures in the purchase of production equipment. While the
recommendations to management and officials to improve the             subsequent investigation revealed that Engineering Management
company’s efficiency and effectiveness. During this reporting          had complied with procurement policies and procedures, the
period, OIG investigations have led to recommendations,                OIG made a recommendation that all capital expenditures should
concerning quality improvement to which management gener-              be recorded and reported in accordance with Federal
ally responded positively and implemented, for the most part, as       Government standards and Amtrak Corporate policies and
detailed in the examples below:                                        procedures. Engineering Management agreed with the recom-
                                                                       mendation and informed the OIG that a separate work element
                                                                       number, assigned to each piece of equipment being overhauled
                                                                       to ensure all capital expenditures associated with the equipment
During the review of an anonymous correspondence regarding
WORK REDUNDANCY AND TIME RECORDING
                                                                       overhaul, will be accurately recorded and reported.
inequitable distribution of overtime involving certain Sunnyside
Yard (SSYD) agreement personnel, which was not sustained,
OIG discovered two areas of concern. One such concern
centered on “work redundancy,” and the other on employee               The OIG investigated an allegation indicating conductors and
                                                                       OVERTIME DOCUMENTATION

“time recording.”                                                      engineers working at SSYD were receiving overtime monies that
                                                                       they were not entitled to receive. Although the subsequent
The work redundancy issue involved two separate entities within
                                                                       investigation did not substantiate the allegation, the OIG found
the Mechanical Department at SSYD essentially performing the
                                                                       deficiencies within the process being used to approve and docu-
same function. The time reporting issue involved employees
                                                                       ment overtime. As a result of an OIG Management Referral
using a manual sign-in/out log to record their work hours rather
                                                                       identifying these concerns, management took the appropriate
than an automated card key system. While a card key system had
                                                                       action to correct these oversights.

                                                                                                                 Office of Investigations   15
                                                                      Amtrak provides food and beverage service on board trains to
                                                                      RPU INITIATED TRAIN SERVICE REVIEWS
 TIME AND ATTENDANCE REVIEWS
                                                                      millions of passengers each year through sales conducted on
Amtrak’s success depends on using available resources in an
                                                                      board trains in café cars and dining cars, provided on select
efficient and productive manner, including their most valuable
                                                                      trains. These sales generate millions of dollars in revenue each
resource, Amtrak employees. Therefore, it is important for
                                                                      year as well as providing opportunity for revenue abuse by
employees to report to work on time and perform their duties
                                                                      dishonest employees.
during their assigned hours, including those designated for over-
time. Falsification of timecards, incomplete or inaccurate            During this reporting period, RPU analyzed the applicable
timecards and the failure of employees to adhere to Amtrak’s          support documents for on board food and beverage sales for 189
attendance policy not only results in a cost to the corporation and   trains for 59 various LSAs. The completed reviews resulted in
employee morale; but, ultimately affects productivity and in          11 administrative referrals consisting of various findings
some cases safety and reliability.                                    covering theft and fraud to failure to follow procedures. At the
                                                                      completion of this reporting period, discipline had been
The OIG receives and investigates allegations regarding time
                                                                      assessed, based on the RPU referrals, for six LSAs with disci-
and attendance issues in an effort to assist in addressing and
                                                                      pline consisting of counseling and remedial training.
preventing time and attendance fraud. The OIG refers most time
and attendance issues to management for its analysis and action,      The success of this program, which began in 2003, as well as
with the OIG monitoring management’s actions. The following           increased controls and accountability on the LSA remittance
is illustrative of OIG time and attendance investigations which       process has been indicated through the gradual decrease of
the OIG conducted during this reporting period.                       viable candidates for review as well as significant findings.
The OIG received an allegation that an Amtrak foreman
routinely reported to work late and suffered no consequences for
the late arrivals due to her position within the company. Upon
conducting an investigation, OIG agents determined that the
                                                                       PROSECUTIVE REFERRALS
                                                                       10/1/07 – 3/31/08
foreman worked for another railroad from 4 p.m. until midnight
and had been arriving to work late as a result of the commute
time between the two jobs, rather than the personal reasons given
                                                                       Referral s             U. S. Atto rney Lo cal / State               To tal


to management.
                                                                       Criminal Cases
                                                                       Indictments                     0                12                 12
Although Amtrak employees may hold a second job, according
                                                                       Convictions/Pleas               3                  5                  8
to Amtrak policy employees are not allowed to hold a position
with another railroad or transportation competitor. As a result of     Pending*                        0                12                 12
charges that the employees had violated Amtrak’s policies for          Declinations                    0                  0                  0
Trust and Honesty Standard in the Standards of Excellence, the
employee admitted that she was not honest in her explanations to
supervisors to receive consideration for her late arrivals and was
                                                                       Civil Cases
                                                                       Suits Filed                     0                  0                  0
ultimately demoted.
                                                                       Settled                         0                  0                  0
                                                                       Pending                         0                  0                  0
                                                                       To tal Ci v i l and Cri mi nal                                      32
 REVENUE PROTECTION UNIT
                                                                       *Some of these will be reflected under pending civil cases because these
The Revenue Protection Unit (RPU) provides pivotal support in          matters are being handled by the United States Attorney’s office in parallel
                                                                       proceedings. In cases where there have been convictions or pleas, we may be
connection with OIG’s efforts to detect and deter theft, fraud and     awaiting sentencing, restitution, or other resolutions.
abuse. Staffed with three management positions and a pool of
part-time Revenue Protection Consultants, working on an as
needed basis nationwide, RPU focuses primarily on revenue-
protection activities and provides critical guidance and support
in the strengthening of management accountabilities and respon-
sibilities as well as internal controls.
16    Office of Investigations
                   Office of Inspections and Evaluations

                                                                    The OIG continues to facilitate and support the establishment of
                                                                    Equipment Reliability Improvements


                                                                    teams dedicated to conducting Root Cause Analyses into recur-
                                                                    ring equipment failures. The teams that have been established
                                                                    have made significant contributions to the improvements in reli-
                                                                    ability of both the Acela trainsets and the high horsepower
                                                                    locomotives. Efforts to improve on these initial successes and
                                                                    expand to other fleets of equipment are on-going.
                                                                    Mechanical Maintenance Facility Rationalization and


                                                                    Recommendations in the OIG report on Mechanical
                                                                    Process Improvement


                                                                    Maintenance Operations addressed rationalizing Amtrak’s main-
                                                                    tenance facilities and streamlining Amtrak’s maintenance
                                                                    processes. These recommendations are in various stages of
                                                                    implementation.
                                                                    One of the improvement efforts that the OIG is heavily involved
 Pennsylvanian | Amish Farmland, PA


                                                                    in is the movement of all P42 diesel locomotive maintenance to
                                                                    Chicago. Through consolidation and the implementation of a
                                                                    new, streamlined maintenance philosophy, the OIG estimates
                                                                    that maintenance costs can be reduced more than $5 million per
 SIGNIFICANT INSPECTIONS &
 EVALUATIONS                                                        year. To assist with this initiative, the OIG has engaged a full-
                                                                    time consultant with considerable experience with diesel
                                                                    locomotive maintenance operations to work with and advise
                                                                    Amtrak’s Mechanical Department.
AMTRAK MECHANICAL OPERATIONS –

                                                                    This consolidation should be complete before the end of the
OIG CONTINUING TO HELP WITH IMPLEMENTATION

                                                                    fiscal year. In addition to this specific effort, the OIG is also
OF PREVIOUS RECOMMENDATIONS.
                                                                    providing advice and assistance with other initiatives as part of
In September 2005, the OIG issued report E-05-04, which
Report E-05-04 – Issued 9/6/2005

                                                                    teams established to improve the efficiency and/or effectiveness
resulted from a year-long system-wide review of Amtrak’s            of the maintenance operation.
Mechanical Maintenance Operations. In this report, the OIG
recommended that Amtrak adopt a more modern maintenance
philosophy based on Reliability-Centered Maintenance (RCM).
                                                                    Locomotive Camera Installations – OIG-initiated project

An RCM-based program requires that all maintenance activities
                                                                    expected to show significant reduction in settlement costs
                                                                    The OIG is facilitating a project with the Mechanical
be supported by sound technical and economic justifications.        Department for the installation of 30 cab-mounted locomotive
The OIG’s report recommended specific actions that Amtrak           video cameras. Freight railroads have shown that these types of
should take to transition to RCM and to make the operations         cameras have made a huge difference in their ability to defend
more efficient. For the past two and a half years the OIG has       themselves in claims involving grade-crossing accidents, thereby
been working with the Mechanical Department to help them            significantly reducing settlement costs and court awards from
implement the OIG recommendations.                                  these types of lawsuits. This OIG initiated, limited-scope project
                                                                    is intended to provide experience with the cameras to allow
                                                                    Amtrak to collect lessons learned and update its technical speci-
Although day to day administration of this initiative is now        fications. Plans are being prepared for the installation of
Implementation of Reliability-Centered Maintenance


under the Chief Operating Officer (COO), the OIG remains            cameras on the remainder of Amtrak’s diesel and cab car fleet in
engaged in an oversight role to help facilitate progress. The OIG   FY 2009. The installation on the Acela trainsets and the electric
has performed additional analysis, resulting in recommendations     locomotives is planned to follow in FY 2010.
to help Amtrak overcome implementation challenges and help
insure that benefits are achieved.
                                                                                            Office of Inspections and Evaluations   17
                                                                       in the future. This report should be published during the next
                                                                       reporting period.
OPERATION REDBLOCK

                                                                       As part of this effort, the OIG questioned whether Amtrak was
Operation RedBlock – Program should be held account-

                                                                       getting the proper credit for components returned to inventory after
able for demonstrating results

                                                                       bench testing. Based on the OIG’s inquiry, Amtrak determined
The Operation RedBlock (ORB) concept began at Amtrak in                that Alstom was overcharging Amtrak by approximately $500,000
Report E-08-01 – Issued 03/04/2008


1987 as a labor-developed, management-supported program to             a month. The total amount of the credit owed is still being calcu-
promote the awareness and education of drug and alcohol use in         lated and will be reported in the next semiannual report.
the workplace through union-led volunteer prevention commit-
tees. This OIG evaluation focused on how well the program was
performing in achieving results and meeting goals. As part of          At the request of the Vice President of Procurement, the OIG is
                                                                       Mechanical Supply Chain Effectiveness

the OIG’s evaluation, the OIG benchmarked Amtrak’s ORB                 sponsoring and helping to facilitate an initiative to improve the
program to similar programs in the other Class 1 railroads.            efficiency and effectiveness of the material supply chain in
                                                                       providing parts and materials for Rolling Stock maintenance.
The OIG’s report contains seven findings with fourteen recom-
                                                                       Cross functional teams have been established to evaluate current
mendations to improve the overall effectiveness and efficiency
                                                                       practices in demand planning, supplier management, order
of the program. While the ORB program provides a valued
                                                                       fulfillment and warranty management.
service for employees and the company through its employee
prevention committees working together on substance-abuse              Facilitated by industry experts from the Thomas Group, the
issues, the OIG found it difficult to evaluate the overall effec-      teams are reviewing current processes and revising them to more
tiveness of the current ORB program. For example, the program          align with industry best practices. The OIG anticipates contin-
does not measure itself against performance goals or develop           uing in this facilitation role until the end of the fiscal year and
meaningful reports to allow for identification of trends and           then producing a report that documents the overall results.
emerging issues.
The OIG found that the program receives minimal oversight at
the corporate level and lacks adequate financial oversight at the
                                                                       AMTRAK’S RIGHT-OF-WAY MAINTENANCE –

local committee level. The OIG found that neither the current
                                                                       PERFORMANCE AND COSTS BENCHMARKED
organizational structure nor some of the current practices opti-
                                                                       The OIG is continuing to evaluate the efficiency and effective-
                                                                       AGAINST EUROPEAN RAILROADS
mally support the long-term rehabilitative interests of the
individual employees and the company.                                  ness of Amtrak’s Right–of–Way maintenance programs. As part
                                                                       of this effort, the OIG engaged a European consultant that has
                                                                       extensive experience evaluating the infrastructure maintenance
                                                                       programs of European railroads. The results show that Amtrak’s
                                                                       infrastructure performance is in line with comparable European
PROCUREMENT AND MATERIAL SUPPLY CHAIN

                                                                       railroads, but Amtrak’s costs are somewhat higher. This is
MANAGEMENT – OIG FACILITATING IMPROVEMENTS

                                                                       partially attributable to the fact that the average age of Amtrak’s
The OIG continues its efforts in facilitating improvements and
Alstom Parts Contract

                                                                       infrastructure is significantly older than the average age of the
resolving shortfalls identified in the OIG initial evaluation of the   railroad infrastructure in Europe and confirms that a backlog of
Acela Parts Contract. As reported previously, Amtrak entered           maintenance exists in Amtrak’s Northeast Corridor to be able to
into a contract with Alstom TLS in 2006 to supply and manage           achieve a state-of-good-repair.
the parts inventory for the Acela trainsets. This contract has an
estimated value of close to $200 million over the five-year term.      The benchmarking exercise has also identified areas of opportu-
                                                                       nity for Amtrak to improve its performance and efficiency where it
Based on the value of the contract and the importance of the           is feasible to adopt the best practices of the European railroads.
contract to the success of Amtrak’s premium Acela service, the         The OIG is continuing to work with Amtrak’s Engineering
OIG continues to work with Amtrak’s Mechanical, Procurement            Department and its European consultant to identify the specific
and Information Technology departments to ensure that Amtrak           best practices that can be adopted in each of Amtrak’s infrastruc-
adequately measures and monitors the contractor’s performance.         ture maintenance programs. The OIG plans on issuing a formal
The OIG is in the process of developing a “lessons learned”            report on this ongoing evaluation during the next reporting period.
report as a guide for Amtrak to use in managing similar contracts

18    Office of Inspections and Evaluations
AMTRAK’S PUBLIC FUNDING LEVELS – COMPARISON                          HUMAN CAPITAL MANAGEMENT – EVALUATION

Whenever comparisons are made between Amtrak and European            The OIG recently initiated an evaluation to determine how effec-
TO EUROPEAN RAILROADS                                                INITIATED

passenger railroads, a discussion typically ensues around            tively and efficiently Amtrak manages its human capital.
European railroads’ claims of profitability. As a follow-on effort   Amtrak is facing numerous human capital challenges in
to OIG’s work benchmarking Amtrak’s right-of-way mainte-             attracting and retaining a world-class, diverse workforce. These
nance against European railroads, the OIG asked the European         challenges include: increased competition for skills within the
consultant to provide Amtrak information on the amount of            railroad community, private industry, and government sectors;
public funding provided to European railroads. The OIG’s intent      and, an increase in attrition from retirements projected over the
is to compare Amtrak’s level of public funding to the level of       next five years.
funding provided to European Railroads and to test their claims
                                                                     The evaluation will examine how Amtrak identifies its
of profitability.
                                                                     manpower needs and then recruits, hires, develops and retains
After examining a representative sample of European passenger        manpower, with the skills needed, to accomplish Amtrak’s
train operations over a multi-year period, The OIG found that:       mission and achieve Amtrak’s strategic goals. As part of the
                                                                     data gathering effort, the OIG has already conducted more than
    When all revenues and expenses for the entire passenger train    80 interviews with both management and human capital profes-
    system are taken into consideration, all of the European
■

                                                                     sionals throughout the company. The OIG will submit the
    passenger train operations the OIG studied operate at a finan-   formal report early in 2009.
    cial loss and consequently require significant public
    subsidies. And,
    The average annual subsidies for European passenger train
    operations are much higher than those for comparable Amtrak
■


    services.
This report has been posted on the OIG website.




                                                                                            Office of Inspections and Evaluations   19
                      Office of Management and Policy

 OIG ESTABLISHES OFFICE OF
 MANAGEMENT AND POLICY AND
 ASSUMES SECURITY OVERSIGHT
 RESPONSIBILITIES
During this reporting period, the OIG established the Office of
Management and Policy. This unit is responsible for providing
mission and administrative support services to the OIG by
managing: budget formulation and execution; policy develop-
ment; personnel security; dissemination of OIG information;
human resources; and OIG facilities. OMP ensures perfor-
mance quality and compliance with current and emerging
Government regulations, directives, and mandates. The office
is the primary liaison with the Government Accountability
Office, and other government departments and agencies. It is
also responsible for security oversight of Amtrak’s OSSSO and      Chicago, IL
Amtrak police programs.

OFFICE OF COUNTER-TERRORISM AND
INTELLIGENCE
As noted in previous semiannual reports the Office of Counter-
Terrorism and Intelligence transitioned from an oversight entity
and assumed expanded responsibilities to Amtrak’s Office of
Security, Strategy and Special Operations. The OIG retained the
responsibility for security oversight under the Office of
Management and Policy.




20   Office of Management and Policy
                                        Other OIG Activities

 COORDINATION WITH INDEPENDENT                                       TEAM MATE IMPLEMENTATION
 PUBLIC ACCOUNTANTS                                                 OIG SECURE SUBNET AND TEAMMATE UPGRADED
Section 805(1) of the Rail Passenger Service Act of 1970 (Public
                                                                    As reported earlier, Amtrak OIG has successfully implemented
                                                                    (PHASE III)
Law 91-518; 49 U.S.C. § 24315(d)) requires Amtrak to have its
financial statements audited annually by an independent certified   a secure subnet and TeamMate application to take advantage of
public accountant in accordance with generally accepted             electronic work papers, and automate the audit processes. All
auditing standards. In January 2008, Amtrak’s independent           offices are now actively using TeamMate, and all new audit
certified public accountant, KPMG LLP, the U.S. member firm         projects are created electronically.
of KPMG International, a Swiss cooperative, reported that           During this semi-annual period, the OIG started the Phase III to
Amtrak’s Consolidated Financial Statements present fairly, in all   upgrade the secure subnet and TeamMate. The OIG success-
material respects, Amtrak’s financial position as of September      fully upgraded the TeamMate software to version 8.1.3, and
30, 2006, and September 30, 2007, and results of it operations      updated the protocol document and library to reflect the changes
and cash flows for the years then ended in conformity with U.S.     as a result of software upgrade and the lessons learned from
generally accepted accounting principles.                           using the application for over a year.
As part of the annual audit process, the OIG informs the external   The OIG implemented 360 degree reporting to generate audit
auditors on the scope of the ongoing audit activities being         programs and audit reports. The OIG infrastructure improve-
conducted by the OIG, and continues to coordinate significant       ments included the successful implementation of the test
audit issues with Amtrak management and the external auditors,      environment, improved configuration management using the
as necessary.                                                       Ecora Auditor Professional software, and hardening of internal
                                                                    firewall by reviewing and tightening the firewall rules. In near
                                                                    future, the OIG will bring all of the OIG servers in full compli-
                                                                    ance with the SANS best practice and enterprise standards.




                                                                                                            Other OIG Activities   21
NATIONAL RAILROAD PASSENGER CORPORATION

                              Office of the Inspector General




                                                                Appendices
                                                   Appendix 1

 INSPECTOR GENERAL AUDIT REPORTS ISSUED WITH QUESTIONED COSTS
 10/1/07 – 3/31/08
                                                      Number    Questioned Costs   Unsupported Costs
 A. For which no management decision
    has been made by the commencement
    of the reporting period.                            2          $871,275             $277,348
 B. Reports issued during the
    reporting period.                                   4          $398,896                   $0

 Subtotals (A + B)                                      6        $1,665,826            $277, 348

 LESS
 C. For which a management decision
    was made during the reporting period.               4
     (i) dollar value of recommendations
         that were agreed to by management.                        $842,996              $68,780
     (ii) dollar value of recommendations
          that were not agreed to by management.                   $282,516             $208,568

 D. For which no management decision
    has been made by the end of the
    reporting period.                                   2          $540,314                   $0




24   Appendix 1
                                                 Appendix 2

INSPECTOR GENERAL AUDIT REPORTS ISSUED WITH FUNDS TO BE PUT TO BETTER
USE
10/1/07 – 3/31/08
                                                          Number    Dollar Value
A. For which no management decision
   has been made by the commencement
   of the reporting period.                                   0            $0
B. Reports issued during the
   reporting period.                                          3    $6,390,505

Subtotals (A+B)                                               3    $6,390,505

LESS
C. For which a management decision
   was made during the reporting period.                      2            $0
   (i) dollar value of recommendations
       that were agreed to by management.                          $5,090,505
   (ii) dollar value of recommendations
        that were not agreed to by management.                             $0

D. For which no management decision
   has been made by the end of the
   reporting period.                                          1    $1,300,000




                                                                      Appendix 2   25
                                                Appendix 3

 OFFICE OF THE INSPECTOR GENERAL DETAILED LISTING
 OF ALL ISSUED AUDIT REPORTS
 10/1/07 – 3/31/08
 Date                Report                                                    Questioned   Unsupported   Funds to be Put
 Issued              Number      Report Title                                       Costs         Costs     to Better Use
 10/17/07            204-2007    East Side Access Project – Labor Review        $41,874             $0                $0

 10/17/07            206-2007    Arnold Worldwide Advertising - Expenses              $0            $0                $0

 11/20/07            217-2007    Cycle Inventory – Boulden & Wilmington, DE           $0            $0                $0

 11/26/07            503-2006    RailPlan International, Inc                   $210,810             $0                $0
                                 COR 001 to Contract #S 050 07001

 11/26/07            504-2006    RailPlan International, Inc COR-002/COR-003   $146,212             $0                $0
                                 to Contract #S 064 90678

 12/19/07            213-2007    Observation of FY07 Annual MW Inventory              $0            $0                $0

 12/19/07            305-2007    Downeaster Train Service Contract                    $0            $0                $0

 01/09/08            105-2007    Analysis of Overtime Wages                           $0            $0      $3,748,758

 3/26/08             204-2006B   New England Division Conductor/                      $0            $0      $1,341,747
                                 Flagman-Reissued

 3/20/08             218-2005    Rocla Concrete Ties                                  $0            $0      $1,300,000

 3/26/08             102-2006    Commonly Abused Medical Billing Codes                $0            $0                $0

 3/31/08             107-2004    Information Security Review                          $0            $0                $0

 3/31/08             217-2006    Ballast                                              $0            $0                $0

 3/31/08             405-2007    BEE Wreck Audit                                      $0            $0                $0




26   Appendix 3
                                     Appendix 4

OFFICE OF THE INSPECTOR GENERAL
SUMMARY OF REPORTS TO PRESIDENT OF AMTRAK
CONCERNING INFORMATION OR ASSISTANCE
UNREASONABLY REFUSED OR NOT PROVIDED
10/1/07 – 3/31/08

Nothing to report for this period.




                                                  Appendix 4   27
                                                      Appendix 5

 OFFICE OF THE INSPECTOR GENERAL
 REVIEW OF LEGISLATION AND REGULATIONS
 10/1/07 – 3/31/08
 Section (4)a of the Inspector General Act of 1978, as amended, provides that the Inspector General shall “…review existing and
 proposed legislation and regulations relating to programs and operations of such establishment and to make recommendations in the
 semiannual reports … concerning the impact of such legislation or regulations on the economy and efficiency in the administration of
 programs and operations administered or financed by such establishment or the prevention and detection of fraud and abuse in such
 programs and operations...”
 Furthermore, Section 4(a) also states that it is the duty and responsibility of the Inspector General “to recommend policies for, and to
 conduct, supervise, or coordinate relationships between such establishment and other Federal agencies, State and local governmental
 agencies, and nongovernmental entities with respect to (A) all matters relating to the promotion of economy and efficiency in the
 administration of, or the prevention and detection of fraud and abuse in, programs and operations administered or financed by such
 establishment, or (B) the identification and prosecution of participants in such fraud or abuse…”
 In order to enhance the OIG’s ability to meet these Section (4)a, responsibilities, we created a new group, the Office of Management and
 Policy (OMP), to ensure compliance with current and emerging legislation, and Government regulations, directives, and mandates. The
 office is the primary liaison with the Government Accountability Office, and other government departments and agencies. In addition,
 the OIG has an agreement with Amtrak’s Government and Public Affairs Department that allows the OIG to review and comment on the
 company’s annual grant and legislative request, and other legislative and regulatory concerns of the company. Existing legislation and
 regulations are also reviewed, as necessary, as a part of every audit and investigation.
 During the period covered by this report the OIG continued to cooperate with and monitor Congressional efforts to draft and enact Amtrak
 reauthorization legislation, as well as legislation intended to update the Inspector General Act. This period has also been the first where
 specific funding has been made available by appropriations for the OIG to conduct its mission. In addition, after the reporting period, the
 House Transportation and Infrastructure Committee reported legislation, H.R.6003 (the Passenger Rail Investment and Improvement Act
 of 2008), which would authorize a separate line item for the OIG. This line item authority and appropriations, together with the IG Act
 reforms proposed in S. 2324 (the Inspector General Reform Act of 2008) and H.R. 928 (the Improving Government Accountability Act)
 will significantly strengthen the independence, effectiveness and accountability of the OIG.




28   Appendix 5
                                                   Appendix 6

GLOSSARY OF AUDIT TERMS AND ABBREVIATIONS
The terms the OIG use in reporting audit statistics are defined below:
                                    A cost or expenditure of funds for an intended purpose that is unnecessary, unreasonable, or an
                                    alleged violation of Amtrak’s corporate policy or procedure.
Ques ti o ned Co s t


                                    A cost that is not supported by adequate documentation at the time of the audit.
Funds To Be Put To Better Us e Funds identified in an audit that could be used more effectively by taking greater efficiency
Uns uppo rted Co s t


                               measures.
                                    Management’s evaluation of our audit finding and its final decision concerning agreement or non-
                                    agreement with our recommendation.
Manag ement Deci s i o n


Abbreviations/acronyms used in the text are defined below:
AAMPS Amtrak’s Accounting, Material                                   NHCAA National Health Care Anti-Fraud
        and Purchasing System                                         Association
ARASA The American Rail and Airway                                    NJT       New Jersey Transit
        Supervisors Association                                       NNEPRA Northern New England Passenger Rail
ADA     Americans with Disabilities Act                                         Authority
Amtrak National Railroad Passenger Corporation                        NRPC      National Railroad Passenger Corporation
APD     Amtrak Police Department                                                (Amtrak)
APP     Appendix                                                      OEM       Original Equipment Manufacturer
ATS     Amtrak Telephone System                                       OIG       Office of Inspector General
COR     Change Order                                                  ORB       Operation RedBlock
CY      Current Year                                                  OSSSO Office of Security, Strategy and Special
DOT-OIG Department of Transportation, Office of the                             Operations
        Inspector General                                             PCard     Procurement Charge Card
DUI     Driving Under the Influence                                   P.L.      Public Law
FRA     Federal Railroad Administration                               PPI       Producer’s Price Index
FY      Fiscal Year                                                   RCM       Reliability Centered Management
G&A     General and Administrative                                    RPU       Revenue Protection Unit
IT      Information Technology                                        RRB       Rail Retirement Board
LOA     Leave of Absence                                              SPCSL     Southern Pacific Central State Line
LSA     Lead Service Attendant                                        SSYD      Sunnyside Yard
M/E     Maintenance of Equipment                                      T&A       Time and Attendance
MPH     Miles Per Hour                                                TCU       Transportation Communication Union
M/W     Maintenance of Way                                            UP        Union Pacific
NAS     National Academy of Science                                   U.S.C.    United States Code
NEC     Northeast Corridor




                                                                                                                         Appendix 6    29
                          Reporting Requirements Index

 INDEX OF REPORTING REQUIREMENTS PURSUANT
 TO THE INSPECTOR GENERAL ACT AMENDMENTS OF 1988 (P.L. 100-504)
 Topic                              Reporting Requirements                                                                Page
 Section 4(a)(2)                    Review of Legislation and Regulations                                                   28
 Section 5(a)(1)                    Significant Problems, Abuses, and Deficiencies                           5, 9, 12-15, 17-19
 Section 5(a)(2)                    Recommendations for Corrective Action to Significant Problems            5, 9, 12-15, 17-19
 Section 5(a)(3)                    Previous Reports’ Recommendations for Which Corrective Action
                                    Has Not Been Completed                                                                  10
 Section 5(a)(4)                    Matters Referred to Prosecutive Authorities                                             16
 Section 5(a)(5)                    Information or Assistance Refused or Not Provided                                       27
 Section 5(a)(6)                    Audit Reports Issued in This Reporting Period                                           26
 Section 5(a)(7)                    Summary of Significant Reports                                           5, 9, 12-15, 17-19
 Section 5(a)(8)                    Audit Reports with Questioned Costs                                                    2, 4
 Section 5(a)(9)                    Audit Reports with Recommendations That Funds Be Put to Better Use                      25
 Section 5(a)(10)                   Previous Audit Reports Issued with No Management Decision Made by
                                    End of This Reporting Period                                                          9, 10
 Section 5(a)(11)                   Significant Revised Management Decisions                                              9, 10
 Section 5(a)(12)                   Significant Management Decisions with Which the OIG is in Disagreement                9, 10




30   Reporting Requirements Index
Stop Fraud, Waste, Mismanagement, and Abuse

Who pays? You pay. Act like it’s your money… it is!
Tell Us About It
Maybe you are aware of fraud, waste, mismanagement, or some other type of abuse at Amtrak.
Amtrak’s Office of Inspector General has a toll free hotline number for you to call. You can also write to us.
We will keep your identity confidential. If you prefer, you can remain anonymous. You are protected by law from reprisal by your
employer.

Call the hotline:
Nationwide           (800) 468-5469
Philadelphia         (215) 349-3065
                      ATS 728-3065

Write to us:
Inspector General
P.O. Box 76654
Washington, DC 20013-6654




National Railroad Passenger Corporation
Office of Inspector General
(800) 468-5469
       National Railroad Passenger Corporation
                 Office of the Inspector General
10 G Street, NE, Suite 3W-300, NE, Washington, DC 20002-4285



         Amtrak is a registered service mark of the National Railroad Passenger Corporation.
